<html>
<title> - OPPORTUNITIES FOR MOVING INTO A SECOND CENTURY OF SERVICE: WORKING TO IMPROVE THE NATIONAL PARK SERVICE WORKPLACE ENVIRONMENT</title>
<body><pre>[Senate Hearing 115-35]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 115-35

 OPPORTUNITIES FOR MOVING INTO A SECOND CENTURY OF SERVICE: WORKING TO 
        IMPROVE THE NATIONAL PARK SERVICE WORKPLACE ENVIRONMENT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                             NATIONAL PARKS

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2017

                               __________
                               
                               
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                              


                       Printed for the use of the
               Committee on Energy and Natural Resources
                             
               
        Available via the World Wide Web: http://www.govinfo.gov
               
               
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-976                     WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ef9eef1defdebedeaf6fbf2eeb0fdf1f3b0">[email&#160;protected]</a>               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada
                                 ------                                

                     Subcommittee on National Parks

                         STEVE DAINES, Chairman

JOHN BARRASSO                        MAZIE K. HIRONO
MIKE LEE                             BERNARD SANDERS
CORY GARDNER                         DEBBIE STABENOW
LAMAR ALEXANDER                      MARTIN HEINRICH
JOHN HOEVEN                          ANGUS S. KING, JR.
ROB PORTMAN                          TAMMY DUCKWORTH

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Michelle Lane, Professional Staff Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
              Rebecca Bonner, Democratic Legislative Aide
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Daines, Hon. Steve, Subcommittee Chairman and a U.S. Senator from 
  Montana........................................................     1
Hirono, Hon. Mazie K., Subcommittee Ranking Member and a U.S. 
  Senator from Hawaii............................................     2

                               WITNESSES

Reynolds, Michael T., Acting Director, National Park Service, 
  U.S. Department of the Interior................................     4
Kendall, Mary L., Deputy Inspector General, U.S. Department of 
  the Interior...................................................    10
Burks, Maria, Executive Council Member, Coalition to Protect 
  America's National Parks.......................................    14

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Burks, Maria:
    Opening Statement............................................    14
    Written Testimony............................................    16
    Responses to Questions for the Record........................    45
Daines, Hon. Steve:
    Opening Statement............................................     1
Hirono, Hon. Mazie K.:
    Opening Statement............................................     2
Kendall, Mary L.:
    Opening Statement............................................    10
    Written Testimony............................................    12
    Responses to Questions for the Record........................    44
National Treasury Employees Union:
    Statement for the Record.....................................    48
Pickard, James:
    Letter for the Record........................................    51
Reynolds, Michael T.:
    Opening Statement............................................     4
    Written Testimony............................................     6
    Responses to Questions for the Record........................    36

 
       OPPORTUNITIES FOR MOVING INTO A SECOND CENTURY OF SERVICE:
   WORKING TO IMPROVE THE NATIONAL PARK SERVICE WORKPLACE ENVIRONMENT

                              ----------                              


                        WEDNESDAY, JUNE 7, 2017

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:39 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Steve Daines, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines [presiding]. Thank you. The Subcommittee 
will come to order.
    This is our very first oversight hearing on the National 
Parks Subcommittee this Congress. I look forward to presiding 
over the important work of this Subcommittee and working with 
you, Ranking Member Hirono.
    I have already had a great experience working with you on 
other issues. I am proud we were able to work together to 
recognize National Park Week recently and look forward to more 
great things to come.
    I grew up 90 miles away from Yellowstone National Park, 
that is still home for me in Montana, and I know how important 
our parks are to our national heritage and the Montanans I 
represent.
    I want to thank Chairman Murkowski for this opportunity and 
for her leadership and also prioritizing this critically 
important issue to our national parks.
    The title of our hearing today is Opportunities for Moving 
Into a Second Century of Service: Working to Improve the 
National Park Service Workplace Environment.
    Last year the National Park Service (NPS) celebrated its 
Centennial. The Centennial was more than just a celebration. It 
had a goal, and it was to create the next generation of 
national park visitors, supporters, and advocates and ensure 
that that group represents and looks like the rest of America. 
And based on the record number of visitors to our parks, it 
appears it was a resounding success.
    But marring the successes of the Centennial that same year 
was the growing number of park service employee complaints 
about a workplace culture where bullying is rampant, sexual 
harassment goes unaddressed, complaints leading then to 
retribution and top employees facing no accountability at some 
of our most high-profile parks, including one of Montana's 
crown jewels. I know the Senator from Wyoming would probably 
argue which state gets to claim this crown jewel, but it is 
Yellowstone National Park.
    Senator Hirono. ----Hawaii.
    Senator Daines. Well, yes, but I do not think you are going 
to claim Yellowstone. You can, though. It is a great park.
    Senator Hirono. Thank you.
    Senator Daines. At Yellowstone there was an investigation 
conducted by the Inspector General (IG) which documented a 
hostile work environment that was carried on because of the 
actions or inactions of supervisors.
    These are not new problems, unfortunately. The Park Service 
has been aware of them for nearly two decades. As a son, a 
husband, and a father of four, including two young women, this 
is completely unacceptable.
    Our national parks are what makes our country uniquely 
American. China may have the Great Wall, Europe has old 
cathedrals and castles, but in America, we have our national 
parks. And frankly, what I have learned about the workplace 
environment at the National Park Service is entirely unworthy 
of that ideal.
    Concrete steps must be taken to put an end to this 
outrageous behavior in the workplace. While I recognize our 
witnesses today, along with previous and current 
Administrations, have taken some action, it is our duty to 
demand rigorous accountability. I look forward to hearing from 
the witnesses on how the National Park Service can reform and 
improve.
    I will now turn to the Ranking Member, Senator Hirono. It 
is truly an honor, Senator Hirono, to have you here for your 
remarks.

              STATEMENT OF HON. MAZIE K. HIRONO, 
                    U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you very much, Senator Daines, and 
congratulations on becoming the new Chair of this Subcommittee. 
Of course, I am looking forward to working with you on the many 
issues facing our national parks.
    And yes, it was really important that last year we 
celebrated the Centennial of all of our national parks. As part 
of my observation, I went to Haleakala National Park in Hawaii. 
We have a very rare plant there called the Silver Sword, and I 
planted Silver Sword there at the park with some of the 
students who have been regular visitors and supporters of the 
park. These are very important treasures for our country.
    Business is booming at our national parks, which just set a 
new record for attendance for the third consecutive year. And 
despite the growing number of people who visit every year, our 
parks face serious underinvestment for the value they provide. 
In addition to the well-established $12-billion deferred 
maintenance backlog, record attendance has increased demand for 
visitor services that parks must provide from existing budgets.
    The President's Fiscal Year 2018 budget reflects neither 
the tremendous economic impact of our national parks nor the 
financial pressures they face. Instead of investing more in our 
parks, the President proposes to cut funding to NPS by almost 
$400 million and approximately 1,200 people would lose their 
jobs.
    This budget sends precisely the wrong message to the 
National Park Service employees and the visiting public. By 
asking NPS employees to do more with fewer resources, the 
President is placing yet another unnecessary strain on these 
dedicated public servants.
    It is against this backdrop, one of underinvestment, 
overextended staff and failure to prioritize our parks in the 
face of great public interest and support that we meet today to 
discuss the important issue of misconduct and harassment at the 
NPS.
    The NPS, like any workplace, has a responsibility to 
provide a safe environment that provides adequate training and 
equitable treatment for all of its roughly 22,000 employees and 
340,000 volunteers. Unfortunately, as the Chair mentioned, 
recent reports and investigations reveal that the NPS failed to 
protect its workers from sexual harassment and misconduct.
    Since January 2016, the Interior Department's Office of 
Inspector General (OIG) has released eight investigative 
reports relating to workplace misconduct within the NPS. These 
reports painted a disturbing pattern of systemic sexual 
harassment and misconduct in parks across the country. Victims 
of harassment have faced retaliation for coming forward. Others 
have reported concerns about how NPS has dealt with 
perpetrators, including instances where individuals have been 
relocated instead of fired, or rehired at a different date.
    Over the past year, the NPS has taken steps to address the 
issue of workplace harassment and misconduct. These actions 
include releasing a voluntary survey earlier this year to Park 
Service employees and establishing an ombudsman office.
    In addition, Tammy Duchesne--Tammy, where are you? She's 
from Hawaii, a Superintendent from Hawaii, and she has been 
detailed here in DC to serve as NPS's Sexual Harassment 
Prevention and Response Coordinator. It is good to have you 
here, Tammy. I understand that Tammy is here today to say aloha 
and mahalo to all of us, and mahalo to you, Tammy, for your 
work to help address these important issues within the Park 
Service.
    As someone who has spent a great deal of time working on 
how to address sexual assault within the military, I recognize 
that changing culture can be challenging and difficult. It is 
important, however, to address this issue head on. We need to 
identify the source of the problem, implement appropriate 
policy and procedural changes, incorporate best practices and 
establish a culture of transparency and accountability.
    I appreciate that the Subcommittee is having a hearing 
today on this important issue and look forward to hearing what 
progress the NPS has made to address these concerns. It will 
take us all working together to effect a change in workplace 
culture within the NPS.
    Of course, like the Chair, I look forward to hearing from 
our witnesses this afternoon on how Congress and this 
Administration can help support our National Park Service 
through policy, staffing, funding, et cetera, that will improve 
the workplace environment. We want our second century of 
meaningful experiences for both national park visitors and 
employees, so we are on your side.
    Thank you, Mr. Chairman.
    Senator Daines. Thank you, Ranking Member Hirono.
    It is now time to hear from our witnesses. Joining us this 
afternoon are Mr. Michael Reynolds, Acting Director of the 
National Park Service; Ms. Mary Kendall, Deputy Inspector 
General at the Department of the Interior; and Ms. Maria Burks, 
Executive Council Member at the Coalition to Protect America's 
National Parks. I want to thank you all for being with us here 
today.
    At the end of the testimony we will begin questions. Your 
full written testimony will be made part of the official 
hearing record.
    Mr. Reynolds, would you proceed?

  STATEMENT OF MICHAEL T. REYNOLDS, ACTING DIRECTOR, NATIONAL 
         PARK SERVICE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Reynolds. Mr. Chairman, Senators, thank you for the 
opportunity to discuss the National Park Service's progress in 
improving our workplace environment as we begin our second 
century of service on behalf of the American people. I will 
summarize my statement and submit my full statement for the 
record.
    It is a privilege to represent the nearly 20,000 employees 
who make up our workforce. One of the most rewarding parts of 
my job is hearing from the American people who tell me about 
the inspiring experiences they had during their trips to 
national parks. They often single out employees who have gone 
above and beyond the call of duty. In my over 30 years of 
government service employed at almost every level of the Park 
Service, I have been privileged to work with the most 
dedicated, professional and enthusiastic workforce imaginable.
    Unfortunately, last year we saw the emergence of several 
sexual harassment and hostile work environment cases. There are 
park locations where these cases were allowed to fester, where 
employees felt that reporting these conditions would change 
nothing and invite retaliation. That was a wakeup call that we 
needed to make significant improvements to our workplace 
environment.
    As a result, the National Park Service leadership is 
striving to bring a culture of transparency, respect, civility 
and accountability back to the organization. We want to ensure 
that all employees have a safe, respectful work environment 
that allows them to do their best. And leading our effort, 
Secretary Zinke has made it clear he demands that all employees 
work in a climate where any form of harassment or 
discrimination is not tolerated. We are acting as quickly as 
possible when new cases are brought to our attention, and we 
are pursuing proactive strategies on multiple fronts.
    First is a workforce survey. We are examining the breadth 
and depth of the problem. To understand the prevalence of 
harassment we developed a Workplace Environment Survey that all 
permanent NPS employees were asked to complete. We anticipate 
receiving those results by the end of summer, by the end of 
August. We will use these results to define specific future 
goals and further tailor our response strategy. Next month we 
will also issue this survey to all--approximately 4,700--of our 
seasonal employees.
    Second, we established an ombuds office to provide a 
confidential, independent resource that employees could turn to 
for advice about options available to report harassment or 
other complaints. In just four months the office received more 
than 1,000 complaints, concerns, or recommendations from 
hundreds of employees. The ombuds also provides updates to 
leadership about the questions and concerns they have heard.
    Third, we are improving training aimed at recognizing and 
addressing harassment. We now require online sexual harassment 
training for all employees and are incorporating anti-
harassment training into all of our major training curricula. 
We are also requiring all 4,000 supervisors to take a course 
called ``Civil Treatment for Leaders.'' This will teach them 
how to create a welcoming environment where employees feel 
respected and encouraged to speak up and help them understand 
the responsibilities as it relates to harassment.
    Fourth, to more effectively incorporate feedback from 
employees, we have endorsed and supported a range of Employee 
Resource Groups. These groups are made up of employees from all 
levels and locations across the organization who advise and 
collaborate with leadership to identify and implement best 
practices. They also provide opportunities for career 
counseling, mentoring and peer support.
    Fifth, we are building stronger procedures for reporting, 
investigating, tracking and resolving work environment issues. 
We have a team conducting a thorough review of our policies and 
procedures. This group will recommend updates to ensure that 
employees have clear and safe reporting avenues without 
retaliation, investigations are effective and disciplinary 
actions are applied consistently. We will be working closely 
with the Offices of the Secretary of the Interior, the Office 
of the Inspector General and the Solicitor's Office to ensure 
we achieve these goals.
    And finally, we will continue to hold employees accountable 
for their actions. We need to take all of these actions to 
restore trust and demonstrate to our employees that they are a 
valued resource and that leadership will protect them with the 
same passion with which we protect the parks. This will allow 
us to continue to attract and retain the best and brightest 
employees to care for America's national parks in our second 
century.
    Thank you, Mr. Chairman. I'll be happy to answer any 
questions that you have.
    [The prepared statement of Mr. Reynolds follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Daines. Thank you, Mr. Reynolds.
    Ms. Kendall, please proceed with your testimony.

 STATEMENT OF MARY L. KENDALL, DEPUTY INSPECTOR GENERAL, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Ms. Kendall. Thank you, Mr. Chairman. Good afternoon, 
Ranking Member Hirono and members of the Subcommittee.
    To borrow a well-used axiom, management would be easy if it 
weren't for the people. And NPS has an enormous challenge to 
address in the management of its people.
    The work of the Office of Inspector General offers ample 
evidence of this challenge: serious ethics violations and 
lapses by senior NPS officials, including the former NPS 
Director; little consequence for misconduct and poor judgment; 
an environment where harassment, discrimination and reprisal 
are commonplace; disregard for travel and procurement rules; 
ineffective controls over funds provided to NPS from outside 
partnership and friends groups; and lax fiscal governance.
    In the past, NPS leadership has failed to lead by example 
to take action against wrongdoing and to address its 
ineffective ethics program. Changing this culture will be 
arduous. NPS has had a legacy practice of hiring family and 
friends. Favoritism and sexism abound. NPS' culture of silence 
and protecting its own has kept harassment, discrimination and 
retaliation in the shadows.
    NPS is challenged by the independence of park 
superintendents and the influences of partnership, friends and 
employee groups. Changing this culture would be challenging in 
even the best of times, but that challenge is intensified by 
contemporaneous discussion of drastic reorganization of NPS, 
its structure and its leadership.
    I can point to some improvements by NPS leadership: Acting 
Director Reynolds has been responsive to OIG reports and has 
taken prompt corrective action when necessary and appropriate. 
He recently issued an all-employee memorandum reminding NPS 
employees of their obligation to serve in a highly ethical, 
respectful and transparent manner. The relatively new Ombuds 
Program is a promising practice, and NPS leadership has 
improved communications with both the Solicitor's Office and 
the Office of Inspector General.
    But there is much more that needs to be done. Specifically, 
NPS needs to make immediate changes to its ethics program. It 
has only one full-time ethics counselor, making NPS the bureau 
with the worst ratio in the Department. NPS should change its 
ethics training requirements to cover all employees, with a 
focus on conflict-of-interest risks, something that pervades 
the Service. Management training for all NPS supervisors and 
managers needs to go beyond dealing with sexual harassment. 
More transparency in taking corrective action for misconduct 
would increase accountability and serve as a deterrent factor 
throughout the Service.
    NPS could benefit from an assessment and consequent change 
of hiring practices and selection criteria for seasonal, term 
and full-time permanent employees, as well as for promotion.
    A thorough review and analysis of EEO and other grievance 
settlements should inform NPS of where it needs to focus some 
of its corrective action.
    Controls and safeguards are needed for funds provided by 
outside organizations to the parks, to make this funding 
transparent to NPS leadership and, frankly, to Congress.
    Finally, the ``tone at the top'' could not be more 
important for NPS and its future. NPS has top-level leadership 
nationwide. If these leaders are not modeling consistently 
good--indeed exemplary--conduct, NPS cannot expect its rank and 
file to do so. NPS has tolerated, maybe even encouraged, 
polarizing leadership at many levels. Going forward, NPS needs 
leadership that is not only unifying, but also models the 
upstanding conduct that the Service would like to see in all of 
its employees. NPS needs leaders who are not only aware of 
their ethical obligations but also apply and adhere to them and 
hold others accountable to do the same.
    This concludes my prepared testimony and I'd be happy to 
answer any questions.
    [The prepared statement of Ms. Kendall follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Daines. Thank you, Ms. Kendall.
    Ms. Burks.

 STATEMENT OF MARIA BURKS, EXECUTIVE COUNCIL MEMBER, COALITION 
              TO PROTECT AMERICA'S NATIONAL PARKS

    Ms. Burks. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to appear before you today to 
discuss ways to improve the workplace environment of the 
National Park Service.
    I am a member of the Executive Council of the Coalition to 
Protect America's National Parks, having retired in 2012 after 
a 39-year career with the National Park Service. The Coalition 
is comprised of 1,300 members who collectively have more than 
30,000 years of experience managing and protecting national 
parks. We believe that our parks and public lands represent the 
very best of America and we advocate for their protection.
    Last year, as several of you have mentioned, over 324 
million people visited our 417 national parks in all 50 states 
and several territories. This record-breaking attendance 
reflects the value that Americans place on their national parks 
and served as a huge economic driver for communities and 
businesses that rely on the touring traveler for a critical 
income stream. It is the dedication of over 20,000 employees 
and 300,000 volunteers deeply committed to the mission of the 
service that protects these special places and opens them to 
the public.
    As with any large organization with so many employees and 
places throughout the country--many in remote locations--and 
despite the dedication and general skill of the workforce, 
there are challenges to maintaining a healthy workplace. And 
regarding that, the coalition has some suggestions.
    Annual Funding: The proposed Fiscal '18 budget just 
released by the Trump Administration calls for a cut of 13 
percent from the funding received in the current fiscal year 
representing a reduction of almost $400 million and a loss of 
another 1,200 positions at a time when there are already 2,000 
positions vacant. If adopted, this budget will result in 
reduced hours of park operations, more deferred maintenance 
resulting in rundown facilities, fewer visitor services and 
decreasing morale for employees already stretched to the 
breaking point. These reductions must be resisted.
    Central Oversight: The Administration's budget includes a 
proposal to decrease staffing in central and regional offices. 
With ten regions reduced to seven in 1994, the Park Service 
already struggles to provide legal, technical and regulatory 
support in coaching to parks on complex issues involving 
maintenance, contracts, partnership fundraising agreements, 
disciplinary matters, environmental compliance and similar 
issues. This support is particularly needed by small and medium 
sized parks, a large percentage of the NPS's units which lacks 
specialized staff in these areas. Failure to provide this 
guidance can lead to expensive and time-consuming infractions, 
accidents and lawsuits.
    Human Resources and Supervision: We have several specific 
suggestions to make in this area. First, the service should 
decentralize the human resources function, placing HR 
specialists in strategic locations in the field where they can 
be readily accessible to supervisors and managers. Centralizing 
this function, as happened in the 1990s, has cost the Park 
Service dearly in effective supervisory practice. We have all 
seen painful examples of that recently.
    The Park Service needs to put its money where its mouth is 
about supervisory oversight. A simple example, no supervisor 
should get a satisfactory performance rating, much less a 
performance award, who has not given each subordinate a set of 
performance standards and a meaningful performance review. In 
theory, that's the policy, but it's often overlooked and it's 
devastating to morale.
    Training: A critical part of good supervisory practice, as 
well as other specialized job duties, must be improved. We 
recommend a strategic review of existing training needs 
followed by a funded training program with an emphasis, at 
least in the short run, on supervisory and leadership skills. 
Training should include the opportunity to meet in classroom 
settings where face-to-face interaction and hands-on mentoring 
can occur.
    And last, but certainly not least, providing direct support 
to employees who have been harassed or who feel that they are 
receiving unequal treatment is vital. This issue can be complex 
and circumstances can vary, but a safe, clear avenue for 
employees to raise concerns is an excellent first step and we 
applaud the Ombuds Program that is currently being developed.
    We would point out, though, that two employees in the 
Washington Office will never be sufficient to address the needs 
across the service. As well, this program will only be 
effective if it is part of an accompanying major emphasis on 
overall supervisory hygiene.
    Other suggestions to address employee recognition, equal 
treatment of employees, the impact of travel restrictions and 
paperwork reductions are included in the longer testimony we 
submitted to the Subcommittee.
    Thank you again for inviting us today. And I'm happy to 
answer questions.
    [The prepared statement of Ms. Burks follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Daines. Thank you, Ms. Burks.
    I am going to start off.
    Mr. Reynolds, thank you for your service to the National 
Parks. I was in Glacier National Park on Friday and had a 
chance to take Senator Roberts there, who actually served as a 
waiter at Lake McDonald Lodge in 1955. You do the quick math, 
that was a long time ago.
    Mr. Reynolds. Yeah.
    Senator Daines. It was his first time back since 1955. We 
had a great experience. Superintendent Jeff Mow did a wonderful 
job and his Deputy, Eric Smith, top notch, as we had a great 
experience.
    I do appreciate the steps you have been taking to address 
this challenging issue for employees. However, as I have looked 
through the reports, I am absolutely convinced we must do more. 
I spent 28 years in the private sector attacking these issues 
in the workplace with a Fortune 20 company, with a small, 
family-owned business, as well as a medium-sized cloud 
computing startup.
    The Service issued a survey in 2000 in response to many 
hostile work environment and sexual harassment issues. Here we 
are 16 years later--that survey was back in 2000, nearly 17 
years actually--and there are more hostile and harassment work 
environment claims than there were in 2000. The question is, 
can you truly say that a survey will give any guidance to 
improvement? Couldn't you just say that you already know there 
is a problem and let's focus our efforts on addressing it?
    Mr. Reynolds. Yeah. Thank you, Senator.
    And I'm aware of the survey that you were mentioning from 
2000 was in and around the Grand Canyon, and I'm sorry that it 
did not come to the fruition that it should have.
    The survey that we have put together was well thought out 
and we went out this time, into the private sector, to hire the 
right kind of folks to help us really delve into a number of 
different issues. So this survey is not simply the presence of, 
but it is to help us understand deeply with, not only 
prevalence, but how this might work in the kinds of locations 
that we have.
    So, for example, we have very isolated staff, as we had in 
the Grand Canyon as an example, and we're--what the survey is 
trying to delve into is getting employees to answer appropriate 
questions that help us understand how to apply our resources 
best strategically ahead. How we would actually help employees 
feel safe in reporting one of the things we found was it wasn't 
just how managers misbehave, as it were, but it was that 
employees felt they were not safe to report.
    And so, this survey is designed to do that. And it was a 
survey to help us understand the kinds of harassment, if you 
will, without going into detail, but the categories that they 
might be experiencing so we can focus on our employees best.
    Senator Daines. There is a statement that Ms. Kendall made 
that struck me. She talked about the importance of the ``tone 
at the top,'' and I really could not agree more. Organizations 
will flex depending on how the leadership is directing the 
organization.
    I also saw there was online training as something that was 
being done. As somebody who came from the technology world, 
using online training mechanisms and tools can be very 
effective, but I don't think it is any substitute for having, 
as an example, superintendents actively engage, personally, in 
face-to-face training and engagement. I do believe more is 
caught than taught at the end of the day when we think about 
how we learn and how it is modeled.
    What role do the superintendents have today? We have 417 
national parks. I am doing some quick math here on the 
spreadsheet. Thirteen of those 417, have greater than 200 
employees. Most of these are pretty small organizations and 
even the biggest ones, I realize you have seasonal employees, 
but it is a manageable group here that we can effectively, I 
think, transform a culture with which I think is the root cause 
involved in these problems, is the culture in the workplace.
    What role does the superintendent have, do you believe, in 
actively being involved in leading from the top?
    Mr. Reynolds. Thank you, Senator.
    I couldn't agree more. Our superintendents are, 
symbolically and otherwise, the tip of our spear, our front-
line managers. We're having direct conversations with them, 
with their seven regional directors, that they're going to have 
to be actively involved, that they will be held accountable at 
whatever level goes on in their park.
    But at the same time, they can set a tone from the top by 
actively engaging in employee empowerment, for example. So if 
they had Employee Resource Groups, I mentioned in my testimony, 
I would like those superintendents to interact with the members 
of that group. There's a Women's Employees Resource Group 
forming in the service they would get to know and, for example, 
interact with that group on a daily basis. They're going to be 
actively engaged in some training requirements of themselves 
and then we will expect them to be meeting their employees.
    Yeah, in Yosemite the acting superintendent now has taken a 
lesson from what happened in the IG investigation. There's a 
weekly, if not monthly, report on what's going on in the park. 
They're meeting with the employer relations people about 
certain issues going on at the park.
    Senator Daines. Mr. Reynolds, I am running out of time and 
I want to get a question to Ms. Kendall here on that.
    Mr. Reynolds. Yup.
    Senator Daines. We will come back to you.
    Mr. Reynolds. We agree.
    Senator Daines. Thank you.
    In your opinion, moving forward, Ms. Kendall, how do you 
think leadership should be held accountable for workplace 
misconduct by their employees?
    Ms. Kendall. I believe, personally and I can say this from 
the organization, that accountability needs to be across the 
board. Oftentimes we see that, say, a wrongdoer is corrected or 
punished but if wrongdoing goes on under the management or 
auspices of a supervisor, we have as an organization started to 
look up the chain in our investigations. And I think that in 
any organization supervisors whose employees misbehave need to 
also be held accountable.
    Senator Daines. Thank you, Ms. Kendall.
    Ranking Member Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    I do commend the National Park Service for undertaking some 
pretty basic kinds of steps to put in place training, including 
a very needed ethics training. Better late than never really. I 
know that you have new challenges ahead of you.
    Now the Ombuds office has two Ombudsmen and one is 
stationed in DC and the other in California. We're talking 
about over 20,000 employees, considering you've already 
received over 1,000 comments in just four months from some 300 
employees. So clearly it does not seem that having only two 
staff to undertake this change in how you operate is enough.
    How are you going to reach out to your very many employees? 
Are you asking for more resources?
    Mr. Reynolds. Thank you, Senator.
    Yes, we are focused on that. To be honest with you, we 
wanted to see how the Ombuds program worked. It was a first-
time effort for the National Park Service. It is clearly 
growing in its success. It seems to be well regarded, so we are 
going to be pursuing how to grow the staffing needs for this. 
They're contracting ombuds to us right now so we have the 
flexibility to grow that.
    Senator Hirono. You have the flexibility, but do you have 
the money to put more employees to that effort?
    Mr. Reynolds. I'd have to get back on that. We will be 
focusing resources to invest in our employees. That is a top 
priority.
    Senator Hirono. This is in light of, though, in the context 
of the pretty massive cuts to NPS as reflected in the 
President's budget.
    I think it is going to be a major challenge for you all to 
provide all the kind of necessary resources that you need to 
really change the culture, which is one of the hardest things 
to do having to work on that with regard to our service 
components.
    The survey--I'm curious about it. Who developed the survey 
and, in this area of sexual harassment, is there a model that 
you are using? Are there best practices from other agencies or 
other departments that you are looking to for help?
    Mr. Reynolds. Short answer, Senator, is we didn't find too 
many other models out there other than we did meet with the 
military early on when this crisis was evolving. The military 
helped us very much understand why a very specialized survey 
would work.
    A company named CFI, which is a contractor to the 
Department of the Interior, who then, I believe, subcontracted 
very specialized folks with doctor degrees and others are the 
folks that put together this survey. I have a diversity and 
inclusion manager that helped to run it. And then, as you 
mentioned earlier, we brought a superintendent from Hawaii, 
Tammy, to come in and help us coordinate this with our 
employees.
    Senator Hirono. So is a major portion of the survey to find 
out how extensive the sexual harassment and retaliation is, how 
deeply that goes? Is that part of what you want to do?
    Mr. Reynolds. That's correct. It's a multilayered survey 
that asks, not only prevalence but, as I mentioned earlier, the 
kinds of harassment they may be experiencing, how the 
environment, where the environments are that this is occurring 
in, those kinds of things.
    Senator Hirono. I know that many of your employees are in 
remote areas. How are you going to make sure that the kinds of 
changes and cultural changes that you want to have effected, 
how will you make sure that this is happening in areas where 
your supervisory capability may not be all that strong?
    Mr. Reynolds. I agree and those are some of our most 
vulnerable populations so we have turned to the EEOC, the Equal 
Opportunity Employment Commission, to get advice on where the 
high-risk factors are for these kinds of things, very much 
focus on those parks. And we're asking the regional directors 
to work with their superintendents to personally engage, as I 
said to Senator Daines, on assuring that these kinds of 
investments in our people are happening.
    Senator Hirono. Well clearly this is not something that is 
going to change overnight, so obviously we are going to 
continue our oversight inquiries as to how you are doing, what 
further resources you need.
    And especially I would say in these remote areas where 
retaliation could occur, you may never hear about it--and that 
certainly occurs in the military side--so that's an area that I 
am very interested in finding out about.
    Also the definition of, what kind of retaliation for the 
few people who may report sexual harassment within your 
employee base.
    Mr. Reynolds. We would really enjoy working with you 
further on that and we appreciate the oversight on this.
    Senator Hirono. What is the morale like within the Park 
Service now with all of this going on?
    Mr. Reynolds. Well, I would probably have a jaundiced view 
sitting in Washington, but I try to keep up weekly on what's 
going on. I'm very concerned about our employee viewpoint 
survey results that still indicate folks having concerns about 
the resources that they have available, their engagement, 
sometimes their feeling of senior leaders. So we're talking 
about that at every opportunity that I can get the senior team 
together.
    I think, as you get out to the front line, our employees 
love serving the American people. They have some of the highest 
scores in the employee viewpoint survey in government about 
dedication to a mission: 98 percent feel they're dedicated to 
their jobs; and 86 percent enjoy the job they have in terms of 
the purpose of the job. The level of commitment in the National 
Park Service is higher than most agencies, but it is then very 
low in how folks feel treated and we're very focused on that.
    Senator Hirono. Good. I think that is an appropriate focus.
    If I can, Mr. Chair?
    I was very astounded to learn that there is a lot of hiring 
of relatives, et cetera, and I hope that that is another area 
that you are going to clean up and provide some guidance so 
that we are not perpetrating people who really should not be in 
the positions that they are in.
    Mr. Reynolds. I understand that, Senator.
    We have unique relationships with dual career couples in 
very remote areas that are appropriate. We need to clean up our 
accountability on that to be very transparent in our hiring 
practices.
    Senator Hirono. Thank you.
    Thank you, Mr. Chair.
    Senator Daines. Thank you, Ranking Member Hirono.
    Senator Barrasso.
    Senator Barrasso. Well, thank you very much, Mr. Chairman. 
Congratulations on your chairmanship and thank you for using 
this as the focus of our first hearing under your leadership. I 
think it is very important, and I appreciate you calling this 
hearing to examine ways to improve the workplace environment in 
the National Park Service during its second century.
    Yellowstone National Park, our nation's first national 
park, is often held as an example of what the park system 
should be. It is filled with beautiful and amazing springs, 
geysers and wildlife. Yellowstone, as well as its neighbor, 
Grand Teton National Park, draws millions of people to Wyoming 
each year who would not otherwise possibly come to our great 
state.
    Mr. Chairman, you made a comment about the location. I 
would just say if you Google the official website it would 
point out that it is located mostly in Wyoming. It goes on to 
say the park spreads into parts of Montana and Idaho too.
    Senator Daines. Senator Barrasso, I have no response.
    [Laughter.]
    Senator Barrasso. Well, I appreciate that, Mr. Chairman, 
the seriousness of the Committee, of what we are discussing 
here because unfortunately what we have seen is there have been 
a number of allegations. That is why it is so critical that we 
discuss the issue today of sexual harassment, workplace 
misconduct and the hostile work environments. We all agree that 
this is absolutely unacceptable.
    So following the allegations of sexual and workplace 
misconduct, it was reported first in a Montana newspaper last 
September, the Department of the Interior, the Office of 
Inspector General began this investigation. The final report 
found that park supervisors in one division had created a 
negative work environment for their female colleagues and that 
supervisors had failed to respond correctly.
    All of us are disturbed at the volume of the reports that 
have emerged over the past year, but I am encouraged that 
Secretary Zinke has expressed his desire to address the problem 
head on. Preventing future harassment and misconduct will 
require radical, immediate and lasting changes at both the 
National Park Service and the Department of the Interior as a 
whole.
    Mr. Reynolds, I appreciate you outlining the Department's 
approach to changing the culture of the National Park Service. 
I think it is important. You indicated all park employees must 
now complete sexual harassment training. I think Senator Hirono 
mentioned this is now, it is online training, as the Chairman, 
something that had not previously been required.
    But in her testimony Ms. Burks suggested that employees 
could see mandatory online courses, is what I think is a waste 
of time, particularly when they are required every year.
    What are your thoughts on how the Park Service employees 
will view the training and are there plans to gather additional 
employee feedback on the effectiveness of the courses?
    Mr. Reynolds. Thank you, Senator, and thanks for your 
comment.
    We are starting, I guess you'd say, with the online to make 
sure with a very dispersed organization. When I get up in the 
mornings I remember I have American Samoa all the way to Maine. 
And we have to be cost efficient. We have to be effective with 
what we're doing with resources. So we wanted to move fast this 
year which is why we moved to an online format so we could 
report to our various oversight that we've reached all 
employees.
    We do believe in face-to-face. We do also believe that we 
can empower employees through a chain reaction of training and 
certification, if you'll allow me to use that word, for some 
organizations that we have in the service called ``Allies for 
Inclusion'' that help with empowerment conversations and 
dealing with difficult subjects, and the Employee Resource 
Groups, I believe, could be an ally in that.
    Senator Barrasso. You indicated and Senator Hirono asked 
about the Ombuds Office. I think you said you received more 
than 1,000 comments in the four months following its 
establishment. Can you talk about how many of these are new 
allegations of misconduct? I am not sure what kind of things 
would come in 1,000 comments. How many of these are actually 
new allegations of misconduct and any of the new reports being 
handled differently than might have been reported or done, 
handled, last year?
    Mr. Reynolds. Right. I would be happy, Senator, to follow 
up with more detailed statistics to your staff.
    But in a nutshell, there weren't as--the level of the 
sexual harassment new cases has dropped significantly, but we 
have seen an uptick still in complaints and concerns around 
hostile workplace and then around other harassing behaviors 
that give us great pause. And that's part of what our culture 
change, part of what our organization is now investing in.
    Senator Barrasso. Ms. Kendall, did the Inspector General's 
process for evaluating and investigating these claims change 
after the development of the Ombuds Office?
    Ms. Kendall. We meet regularly with the Ombuds person with 
the Park Service, so I can't say that our process has changed 
dramatically but we do have a direct line of communication.
    Senator Barrasso. Great.
    Ms. Burks, anything else you would like to offer?
    Ms. Burks. Yes, thank you for the opportunity.
    I'd just like to say that it's important to understand, 
sometimes online training is useful, but I think when you're 
talking about changing an organizational culture, you need to 
make a different kind of investment. And when I look at the 
kinds of cuts that have been taken in the Park Service since 
back in the '90s, when ten regions were reduced to seven and 
you now have regional directors with spans of control that are 
30, 40, 50 superintendents and under them are a variety of 
layers of subsequent supervision.
    To change a culture, you really have to have exposure to 
new role models and that exposure really needs to be in person. 
We used to have conferences we attended that made a big 
difference. We realize that travel and training funds are 
highly constrained and we would suggest, as Senator Hirono is, 
I think, hinting at, perhaps, that the budgets that are 
proposed for Fiscal '18 will make it much more difficult for 
the Park Service to take the right kinds of steps to respond to 
these issues.
    If training can't be conducted in really effective ways and 
if it can't be reinforced on a regular basis with regular 
personal conduct, I think that it's going to be very 
challenging for the Service.
    Senator Barrasso. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Daines. Thank you, Senator Barrasso.
    Ms. Burks, thanks for those comments. I share your 
perspective there as well. This, unfortunately, is not a new 
problem. It has been pervasive around organizations all over 
our country, around the world. But it is a solvable problem, 
and the online training, I would submit, is part of the 
solution but it is not sufficient. My experience has been 
sometimes online training is thrown out, as a way to check a 
box saying we did something, instead of getting back to the 
cultural change needed here which, I think, still the ``tone at 
the top,'' as Ms. Kendall said, is so important.
    Speaking of that too, I know Secretary Zinke is addressing 
this problem as he is coming into his new role as Secretary of 
the Interior. I know he wants to tackle this issue head on. I 
have known the Secretary for 38 years when we were both Boy 
Staters in 1979 in Montana. He grew up in the shadows of 
Glacier National Park. I grew up in the shadows of--Senator 
Barrasso seems to think that Yellowstone Park is only in 
Wyoming--but anyway, in the shadows of Yellowstone National 
Park.
    Mr. Reynolds, in the six OIG reports of the past year there 
were many perpetrators given what seems to be more of a slap on 
the wrist or they are being allowed to retire with full 
benefits. My question is how are these punishments equitable to 
the actions?
    Mr. Reynolds. We are deeply diving in to how to be 
transparent and accountable in a system that also values 
privacy, both in terms of law and practice. There's a way to 
fire employees in the Federal Government. It can be done and 
you need to take it on and we need to do it when it is 
appropriate, but there is a due process set of procedures that 
you have to make sure you're also defensible in how you do 
that. We also cannot help when people in the midst of an 
investigation or an HR process do choose to retire or resign.
    But I get it in terms of how this impacts morale and we 
understand the perception problem. And we are working very hard 
to make sure that we up our accountability as the IG has 
informed us, now numerous times, that we need to do.
    Senator Daines. I had the Committee staff run a report for 
me yesterday that just stack ranked all 417 of our national 
parks by size of FTEs, full-time employees. I just wanted to 
get a sense of the organization size, kind of the command and 
control spans in layers.
    Mr. Reynolds. Right.
    Senator Daines. As you look at trying to address a problem, 
again having spent 28 years in leading organizations and 
looking at organization design, it is a place to start.
    One thing I also asked the staff to do was seeing, out of 
417 of our national parks--just curious--how many of our 
superintendents are female? According to the Park Service, 37 
percent of the superintendents are female. After the incidents 
at Grand Canyon National Park, a female superintendent was 
hired.
    Mr. Reynolds. Yeah.
    Senator Daines. I am going to direct this question to Ms. 
Burks, actually. Do you believe that putting more women in 
leadership positions, and I recognize sexual harassment occurs 
with both genders, but would this make a difference and do you 
think there should be more women in leadership roles?
    Ms. Burks. Well, thank you for the question.
    You know, I'd like to see gender equity in the 
superintendents' roster. I'd like to see 50, 51 percent I think 
would actually be equity. Having spent 39 years in the Park 
Service, I can say that getting to 37 percent is a big 
accomplishment. This has been a male-dominated organization for 
a long time, and the service has made great strides. But yes, I 
do believe it would help. I believe it would make a difference. 
I'd like to see the Service be able to move more quickly in 
that direction, yes.
    Senator Daines. Thank you.
    These are going to be some panel-wide questions to open up 
some discussion. The question, in each of your views, is how 
can the Park Service shift from a reactionary response to 
harassment issues to more of a preventive and preemptive 
strategy as a new approach to lowering the incidence of 
misconduct? And we will take volunteers. Who wants to go first?
    Mr. Reynolds, thank you.
    Mr. Reynolds. Senator, thank you.
    In our view in the leadership representing the voice of 
leadership right now, we have been collectively deciding that 
we need to make this a year plus more of our people and to 
focus very much, the last hundred years has been about 
protecting our parks. We need to now focus and protect and 
invest in our people, would be a very good start because it 
would then drive investment, as you know as a business person.
    Ms. Kendall. I would also say that the civil treatment for 
leaders training that the Park Service is going to be 
implementing, is a very good step. All of their leaders are 
going to be expected to take this training. We just finished in 
the OIG training all of our managers and supervisors.
    It is a good awareness program, and hopefully it will 
settle in. There's some practical things that the Park Service 
could do to follow up with that training, but it is a very good 
first step.
    Senator Daines. Ms. Burks?
    Ms. Burks. I'd like to build on what Mr. Reynolds said. You 
know, this is a situation where mold thrives in darkness, if 
you will. Supervisors are not held accountable in the Park 
Service, and they haven't been for some time. There are a lot 
of reasons for that, not necessarily having to do with intended 
malfeasance or anything of the sort. There are so many 
pressures on superintendents and on regional directors to 
respond to constituency issues and to resource problems and 
budget issues and employee and visitor injuries and you name 
it.
    And the Park Service, because I think so many employees are 
dedicated and believe in service, have put family last. And 
what needs to happen now is what Director Reynolds said, is 
family has to come first. There needs to be a major, major 
investment in increased transparency and time spent on working 
directly with supervisors to find out what they're doing and 
how well they're doing it. That has not happened recently.
    Senator Daines. Thank you, Ms. Burks.
    Ranking Member Hirono.
    Senator Hirono. Thank you.
    Issues surrounding sexual harassment, I think, are 
particularly egregious kinds of experiences for anyone to have. 
I am wondering, Mr. Reynolds--there are 22,000 or so employees. 
Do they all know that they are encouraged to report these kinds 
of experiences to you or to somebody?
    Mr. Reynolds. Yes.
    Senator, within--the policy is this--within 60 days of 
coming on board we give them a No FEAR Act training, and we 
tell them that they have to report these things, that they are 
protected from retaliation, and that we will not tolerate it.
    Senator Hirono. Are they given some kind of material, a 
sheet of paper that describes what----
    Mr. Reynolds. They are, but I will tell you that I am, 
admittedly, wanting to invest and make sure that we are really 
focused on doing that in a much broader way. So we're talking 
very much about how to onboard and talk to our employees as 
they come on, particularly seasonal employees as well. There's 
a lack of consistency in that, but we are aware of it and we 
are trying to figure out how to best make sure it really 
happens.
    Senator Hirono. I think that in this area prevention is 
really important so there are any number of things that you can 
do, but a large part of prevention is that people need to know 
when their rights are being infringed upon and that there are 
very clear steps that can be taken----
    Mr. Reynolds. Right.
    Senator Hirono. ----to report.
    I did look at your website regarding your Ombudsman. As far 
as I can see there is nothing that leaps out at me that this 
particular problem of sexual harassment is something that you 
are, particularly, interested in preventing. So am I wrong in 
my view that this is very general, all of this material, and 
you have to go through a lot of it to figure out what you are 
supposed to do?
    Mr. Reynolds. Well, I'll take your observation and critique 
seriously, Senator, and we'll make sure that we are very 
serious about this. This is really job one at this point, so we 
need to probably figure out our marketing materials.
    The one thing I will say with our Ombuds we asked them to 
do is they're also there, we thought this year, to just answer 
lots of employee concerns and to give them a chain, or excuse 
me, access around the chain of command. This is a very new 
practice for us, so we're learning and we will put forward a 
better strategy on that communication.
    Senator Hirono. While I think it is great that your 
employees are now being able to report various kinds of 
workplace concerns that they have, sexual harassment and 
mistreatment, that is a very--how should I say?--very 
sensitive, underreported, kind of behavior, and especially if 
you are talking about co-workers or people who have supervisory 
power over you.
    This is a very unique kind of a crime, if you will. I think 
that I would suggest that you spend some time to think about 
how you can ferret out the extent of the problem, how to 
prevent it and, of course, once the report is made because I am 
sure there is underreporting going on in the area of sexual 
harassment--and sexual assault even. Then there has to be 
investigation that follows and appropriate actions taken, 
including prosecution.
    So this is one of the ways that you prevent and then you 
deter. It is one of the ways that, I think, looking at what the 
military has had to go through over the last several years, 
that particularly the members of the Senate Armed Services 
Committee have focused on, the need for the military to finally 
put into place what they claim to have been a zero-tolerance 
policy for sexual assault in the military, sexual trauma in the 
military and nothing much had been happening for decades and 
decades. I would hate for your Park Service to have that kind 
of experience. We need to get to the bottom of this.
    I thank all of our witnesses and especially you, Ms. Burks, 
for your very practical-minded concerns. And yes, I think it is 
very clear that this program is under-resourced for what you 
are needing to do.
    Thank you, Mr. Chairman.
    Senator Daines. Senator King, you are up, if you would 
like.
    Senator King. I apologize. If you have further questions?
    Senator Daines. I will ask a question then I will turn to 
you.
    Senator King. Thank you.
    Senator Daines. One of the other areas I wanted to discuss 
is the seasonal employees we have in our national parks and the 
challenge that may present here as we attack this issue. I was 
looking at the numbers, kind of going back to my hometown park, 
Glacier National Park: there are 140 permanent, year-rounds, 
but there are 310 seasonal, on average; Yellowstone National 
Park, 227 permanent year-rounds, but 570 seasonal.
    Growing up again literally in the shadows of going through 
my grade school, high school, college years, I get it, in terms 
of we have a lot of young people come oftentimes, but all ages 
will come to our national parks to be seasonal employees. We 
have a lot of good friends in my hometown of Bozeman where they 
met at Yellowstone National Park from the various areas of our 
country, came to work at Yellowstone Park and they are married 
and living in Bozeman.
    How does that affect the culture and how do we address the 
nature that you have short-term, seasonal employees here as you 
are trying to change a culture in our national parks?
    Mr. Reynolds. Well, Senator, you're correct. We really, 
truly rely and the parks operate thanks to our seasonal 
employees. And many of them, as you know and describe, work for 
many years for us. It's almost a second career for some people 
depending on what else they do with their life. Some are brand 
new and some of them are students and are interns.
    We need to very much have a better consistency about how we 
onboard, how we let them know, as I was speaking with Senator 
Hirono about what their rights are. And so, those are the kinds 
of part of the process and system improvements that we're now 
making because of this experience that we've been having the 
last two years.
    The other thing that we really want to do with seasonals is 
make sure that we're getting their voice. So we will put out, 
not only the sexual harassment survey, but we need to be 
figuring out ways that match the calendar time of year because 
remember, we have seasonals year-round, really, in the National 
Park System. But how we interface with them so that they're not 
ever treated as a second-class employee.
    Senator Daines. Alright, thank you.
    Senator King.
    Senator King. I apologize for my tardiness. As the Senators 
know, there is no effort to coordinate schedules around here 
and I was at another hearing this afternoon.
    This is a bit off-topic of the central purpose of this 
hearing, which I think is a very serious concern, and I assume 
your testimony has been that you are going to work seriously to 
confront this issue in our National Park Service. Is that 
correct?
    Mr. Reynolds. Yes.
    Senator King. Yes, thank you.
    The question I wanted to ask is a recent order that I find 
puzzling that suspends the Advisory Commission meetings of 
something like 200 Advisory Commissions. I do not get that. Can 
you explain why that order was issued? The Acadia National Park 
Advisory Commission is established by statute. I just wonder 
what the motivation is, what the purpose is, because this is a 
very important voice for the community around our national 
parks. What is going on? Why? And what are the prospects for 
getting these Advisory Commissions back to work?
    Mr. Reynolds. Yes, thank you, Senator King.
    I can tell you first off that Secretary Zinke is very 
focused in a very positive way on the National Park Service. 
I've been told personally by the Secretary how much he's 
focused on and interested in the Park Service and how it 
operates. He's also very much trying to lead the Department 
through making sure we're as efficient as possible.
    And my understanding is that the Department as a whole, I 
don't know my numbers, to be honest with you, we spent about 
$15 million on Advisory Commissions and different committees 
across the different bureaus. And the Secretary had simply 
asked to put a pause on those and ask those groups to put a 
form of reporting into him, I believe a two-page report, this 
next few weeks and months to just see what they've been 
accomplishing, what their mission is and why they're there.
    I know the Acadia organization very well, Senator. I've 
been up there and had to work in that part of the world. So----
    Senator King. You did not ``have'' to work there, you were 
``privileged.''
    Mr. Reynolds. Yeah, thank you.
    But we will keep a close eye on it. I think that their work 
will be well received by this review at this point, and we'll 
make sure we keep a close eye on it.
    Senator King. I hope so because I do think it is very 
important for any national lands, but particularly national 
parks, for the area to have a voice in the activities and to 
provide information to the National Park Service and to the 
local park.
    I know that the Acadia Park Advisory Commission has been 
very important in the local community and so I hope that this 
pause, as you characterize it, will be a short one and that we 
can get our advisory commission/committee back up and running.
    Thank you.
    Mr. Reynolds. I will focus with the Department on that. 
Thank you.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Daines. Thank you, Senator King.
    Ranking Member Hirono.
    Senator Hirono. I have one follow-up question for Ms. 
Kendall.
    Thank you for the work that you have done in exposing some 
of the challenges facing our National Park Service.
    In your opinion, what are the three most urgent actions 
that the Park Service can take or needs to take to change the 
workplace culture?
    Ms. Kendall. Certainly getting the training and the word 
out to their employees that reporting misbehaviors, harassment 
or retaliation, discrimination, anything like that, that they 
can do this without fear of retribution or any kind of 
retaliation. I think that's probably number one to get that 
word out.
    Number two, I would go back to what Senator Daines focused 
on and that is the ``tone at the top.'' I think that working 
with their folks at headquarters--their superintendents, their 
regional directors--they're the people that are going to have 
to model the behavior in a very transparent and I would say, 
upfront and almost an aggressive way, to let their folks know 
in the field that they're serious about this.
    And then finally, having a vehicle like the Ombuds to 
receive and coordinate complaints and other concerns with 
offices like mine, where we conduct, as you know, quite a few 
investigations. And we rely on getting information directly 
from organizations like the Park Service. And we do have very 
good communication, both with Director Reynolds directly, as 
well as many people in the Park Service.
    Senator Hirono. Mr. Reynolds and Ms. Burks, would you 
pretty much agree with these priority areas that Ms. Kendall 
outlined for us? Yes?
    Mr. Reynolds. Yes, I do agree. I would maybe add something 
in there about revamping our policies and procedures, but I 
think that's buried in Ms. Kendall's statement.
    Ms. Burks. Yes, I think what she said was exactly right.
    Senator Hirono. Thank you, Mr. Chair.
    Senator Daines. Thank you, Ranking Member Hirono.
    I too, very much concur as we think about the next steps 
going forward, which there will be many, is back to this ``tone 
at the top,'' taking from Ms. Kendall's original testimony that 
I just would like to see the superintendents personally 
involved in some form or fashion here, early on, employee 
onboarding.
    I recall when I was a young employee in organizations when 
the big boss came in, it meant a lot. They can set the 
expectation. They will model it by being present and talking 
about this up front. I think that is real important to setting 
the cultural tone going forward here. It is what needs to be 
changing here, the culture.
    Something else I learned after 20 years of business is that 
if you aim at nothing you will hit it.
    [Laughter.]
    My last question, then we will conclude the hearing unless 
Senator King has additional questions or the Ranking Member, 
but I will end with this question. How exactly should the Park 
Service measure improvement in the workplace? What are the one 
or two metrics that we should be looking at here that we will 
set as key goals and measure over time to make sure we are 
actually making progress? And I would like to get opinion from 
all three, if you have one. We will start with you, Mr. 
Reynolds.
    Mr. Reynolds. I think progress and changes through things 
like the employee viewpoint survey or other surveys would be 
good data marks. I also think that some sort of oversight 
reporting that we should be doing that ties to performance of 
our people would be another way of seeing how performance 
changes with that.
    Senator Daines. Ms. Kendall?
    Ms. Kendall. And if we saw a reduction in complaints it 
would be an indicator, I believe.
    Senator Daines. Okay.
    Ms. Burks?
    Ms. Burks. Yes, I think a reduction in complaints would be 
one metric. I'd also suggest a very simple, practical step of 
formal review of performance standards and performance 
appraisals to see that they are actually being done and the 
supervisors are actually carrying out their training and 
mentoring responsibilities. I think that would make a big 
difference right up the line.
    Senator Daines. Well, my experience--I mean, I agree--as we 
do these odyssey surveys, they give you a nice big, fancy 
report and you have a one-time power point presentation. Then 
they are quietly put on a shelf and they collect dust until 
somebody asks a question, perhaps ten years later, and it is a 
real challenge. So action is needed.
    If there are no more questions for today, members may also 
submit follow-up, written questions for the record. The hearing 
record will be open for two weeks.
    I want to thank the witnesses for their time and testimony 
today.
    This hearing is adjourned.
    [Whereupon, at 3:40 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
